          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Management Alert
Extended Assignments at Princeton
Plasma Physics Laboratory




DOE/IG-0864                                  May 2012
                                  Department of Energy
                                    Washington, DC 20585
                                          May 17, 2012



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: Management Alert on "Extended Assignments at
                         Princeton Plasma Physics Laboratory"

BACKGROUND

Princeton University operates the Princeton Plasma Physics Laboratory (Princeton) under a
contract with the Department of Energy's Office of Science. Princeton works with partners
around the world to develop fusion as an energy source. The Laboratory's annual operating costs
are about $80 million, all of which is reimbursed by the Department.

As an integrated management and operating contractor, Princeton's financial accounts are
combined with those of the Department, and the results of transactions are reported monthly
according to a uniform set of accounts. Princeton is required by its contract to account for all
funds advanced by the Department annually on its Statement of Costs Incurred and Claimed, to
safeguard assets in its care, and to claim only allowable costs. Allowable costs are incurred costs
that are reasonable, allocable and allowable in accordance with the terms of the contract,
applicable cost principles, laws and regulations.

On May 8, 2012, we issued a separate contract audit report on Audit Coverage of Cost
Allowability for Princeton Plasma Physics Laboratory during Fiscal Years 2009-2010 under
Department of Energy Contract Numbers DE-AC02-76CH03073 and DE-AC02-09CH11466
(OAS-V-12-06, May 2012). One of the objectives of that audit was to determine whether
questioned costs and internal control weaknesses impacting allowable costs that were identified
during audits and reviews had been adequately resolved. During the course of our contract audit,
we identified specific costs that we considered to be unreasonable and related internal control
weaknesses that led to the questionable costs.

CONCLUSIONS AND OBSERVATIONS

The Department reimbursed Princeton $1.04 million for lodging subsidies incurred by two
employees who were on extended assignments – 14 years in one case and 9 years in the other.
While existing Laboratory policy permitted temporary assignments, the duration of these
particular assignments appeared to be excessive and inconsistent with Department policies that
we used for benchmarking purposes. Consequently, we considered these costs to be
unreasonable, and, as a result, we questioned their allowability.
                                     Extended Assignments

The Department reimbursed Princeton approximately $1.04 million for lodging subsidies paid to
two employees on extended assignments, an amount we considered unreasonable because the
subsidies were not limited in duration or reduced in amount. One employee had been on
extended assignment for about 14 years (approximately $600,000 in per diem), while the other
about 9 years (approximately $400,000 in per diem). In the most recent year, for example, each
of these employees received per diem of about $4,000 per month or $48,000 a year. In addition
to the lodging subsidies, the employees were paid what the Laboratory referred to as "field
service premiums" of 12 percent of their salaries for the duration of their extended assignments.
These premiums currently amount to a total of $2,700 per month or $32,400 per year. All of
these costs were fully reimbursed by the Department. The employees worked on fusion research
projects conducted with General Atomics in San Diego, California. According to the cost
principles in Federal Acquisition Regulation (FAR), Subpart 31.2, a cost is reasonable, if in its
nature and amount, it would be incurred by a prudent person in the conduct of competitive
business. We do not believe that this test was met in these cases.

Subsequent to our bringing this matter to its attention, the Department's Office of Science, to its
credit, identified and self-reported two additional instances of Princeton employees who were on
extended travel for greater than 3 years. Science reported that one employee had been on
extended travel since June 2002, on assignment to the Massachusetts Institute of Technology and
had received total lodging reimbursements of over $400,000. Another employee had been on
extended travel since October 2007, on assignment to the Oak Ridge National Laboratory and
had received total lodging reimbursements of over $95,000. Both employees had also received a
field premium of 12 percent of salary. Although we are uncertain of the total costs involved and
details regarding the two employees the Office of Science identified, it appears that based on
length alone, the cost of these assignments is questionable as well.

The Department did not have specific policies concerning extended assignments that are directly
applicable to Princeton. Therefore, to assess the reasonableness of these subsidies, we
benchmarked Princeton's policy against Department policies that address extended assignments
for other contractor and Department employees. In each case, these policies limit the duration
and/or amount of lodging subsidies contractors or employees can receive when on extended
assignments. Specifically:

       Department Order 350.2b, Use of Management and Operating or Other Facility
       Management Contractor Employees for Services to DOE in the Washington, D.C. Area,
       states that long-term contractor assignments to Washington, DC must be approved
       annually and be limited to a maximum of 3 years. The Order states that assignments in
       excess of 3 years should be considered relocations and reimbursements in excess of
       salaries and benefits should cease. It also requires that reimbursements be reasonable and
       based on actual costs or a reduced per diem rate.

       Department Manual 321.1-1, Intergovernmental Personnel Act Assignments, states that
       employees temporarily transferred to a new location may be paid the lesser of a reduced
       per diem or relocation expenses. The lodging per diem on extended assignments should
       not exceed 55 percent of the normal temporary duty lodging allowance for the location.
       Additionally, per diem allowances are intended for short-term assignments of 2 years or
                                                 2
       less and are not authorized beyond the 2 years, even if the assignment is extended. This
       policy applies to employees temporarily transferred between the Federal government and
       state, local, and tribal governments; institutions of higher education; and eligible non-
       Federal organizations, including Federally Funded Research and Development Centers.

       Department Manual 552.1-1A, U.S. Department of Energy Travel Manual, states that
       when travel assignments exceed 30 days, the per diem should not be more than
       55 percent of the applicable per diem rate for the locality. Payments above this level
       must be fully justified if lower cost lodging arrangements are unable to be made. This
       policy applies to Department employees and other persons travelling on behalf of the
       Department, except for contractors, who are specifically excluded.

                                Contributing Factors and Impact

Neither Princeton nor the Department's Princeton Site Office (Site Office) had taken what we
would consider to be appropriate action to protect taxpayer interests by controlling the costs of
these extended assignments. The reimbursements, from a purely technical standpoint, were not
inconsistent with Princeton's extended assignment policy. Yet, when compared with other
existing Department policies, these reimbursements were unreasonable.

Princeton officials stated that they had performed a cost analysis of the extended assignment
policy prior to its adoption in 1998. According to supporting documentation, the existing policy
was based on the assumption that assignments would be of a temporary duration of 3 years or
less, an assumption that clearly was not applicable to the case of the Princeton employees on
extended assignment. According to Princeton officials, the policy on extended assignments was
incorporated into Princeton's contract with the understanding that associated costs were
reasonable and allowable under the contract. Although the policy was omitted from the contract
in 2001, along with subsequent modifications and extensions thereafter, Princeton officials told
us that it remained in effect as part of the Personnel Practices Manual.

Further, safeguards designed to help ensure the appropriateness of extended assignments were
not particularly effective. Despite multiple opportunities to review the policy, neither Princeton
nor the Site Office could provide any evidence of revisiting this policy since it was approved,
even though the cases identified during this audit showed that the assignment duration
assumptions were unreliable. Further, while the employees in these cases had signed agreements
stating their assignments would be for 1 year and 2 years, respectively, Princeton had extended
the agreements annually without documenting the reasons for continuing the assignments or
considering alternatives.

Because of the length of these assignments and the fact that Princeton never updated its 1998
analysis or evaluated other options, such as permanent changes of station for these employees,
we questioned the reasonableness of the $1.04 million in lodging costs and salary premiums for
the two employees we identified.




                                                3
                                        Lessons Learned

We have previously reported on similar concerns with contractor extended assignments. For
example, our audit report on The Department of Energy's Management of Contractor
Intergovernmental Personnel and Change of Station Assignments (DOE/IG-0761. March 2007),
found that contractors paid excessive allowances to assigned employees, including the payment
of both relocation and travel per diem costs; and, had assigned employees to other organizations
for extended periods of time, in one case about 15 years, without ensuring their assignments
were the most cost-effective approach to meeting mission needs. This report also noted the
Department had not provided guidance to its contractors regarding the duration of assignments or
the reimbursement of allowances (relocation and per diem costs) to assignees working at other
agencies.

Another audit report, Management of Facility Contractors Assigned to the Washington, D.C.
Area (DOE/IG-0710, November 2005), found that contractor assignments were routinely
extended beyond a year without documentation addressing the need for, and duration of,
assignments and consideration of alternatives to long-term assignments, some of which had been
extended to as long as 15 years. The audit also noted the Department had not promulgated
standards for dislocation and other allowances for contractor employees assigned to the
Washington, DC area.

In addition to the audit reports, the Office of Inspector General has investigated several
contractors and their employees for improperly claiming per diem and lodging subsidies. These
matters have been successfully prosecuted.

In response to the above reports and investigations, the Department revised one of the
Departmental directives that we used as benchmarks, debarred contractors, and recovered
substantial taxpayer-provided funds. We believe that actual experiences in major components of
the Department's contractor community regarding the costs associated with extended
assignments provide important lessons learned that may have broader applicability.

                              Recommendations and Path Forward

To address the immediate concerns at Princeton regarding extended assignments, in our
separately issued contract audit report on audit coverage of cost allowability we recommended
that the Manager, Princeton Site Office:

    1. Direct the Contracting Officer to make a determination on the allowability of the lodging
       subsidy costs questioned in the report;

    2. Direct the Contracting Officer to calculate the field service premiums paid to the
       employees over the duration of their extended assignments and make a determination of
       the allowability of the costs;

    3. Perform a cost analysis of Princeton's policy concerning extended assignments to
       determine whether it is in the best interest of the Department to continue it; and,



                                                4
    4. Require Princeton to thoroughly justify assignment extensions by defining, to the extent
       possible, the entire period of the assignment and clearly demonstrating consideration of
       alternatives for meeting that need.

The Site Office agreed to take appropriate corrective actions regarding the above
recommendations.

While our current and past review efforts have focused on Princeton and other Department
contractor sites, the frequency of incidents in this area suggests that the Department should
address these matters on a corporate basis. Accordingly, to strengthen controls over contractor
extended assignments, we recommend that the Director, Office of Management, develop and
issue guidance to assist facility contractors in their development of extended assignment policies.

MANAGEMENT REACTION AND AUDITOR COMMENTS

The Office of Management concurred with our recommendation and stated that it had taken swift
and decisive action, both with respect to the particular situation at Princeton, and the broader
policy posture of the Department. Management stated that, in response to our recommendation,
it has developed and issued guidance to address contractor extended assignments that are not
covered by other Departmental guidance. Management stated that the guidance sets firm limits
on reimbursement and other subsidies for contractor domestic extended personnel assignments.
In addition, we were informed that Princeton has agreed to reimburse the Department $1 million.

Finally, Department officials informed us that they took action to ensure that payments to the
four assignees were discontinued. Specifically, the cognizant contracting officer notified
Princeton that all reimbursements for the two individuals we identified and the two additional
employees identified by the Office of Science were to be discontinued immediately and that
future costs for these assignees would be considered to be unallowable.

We commend Management for taking prompt action to address our recommendation and to
recover costs questioned as a result of our audit.

Management's comments are attached in their entirety.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Science
    Acting Chief Financial Officer
    Director, Office of Management
    Chief of Staff




                                                 5
Attachment
Attachment (continued)
                                                                    IG Report No. DOE/IG-0864

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
               electronically through the Internet at the following address:

          U.S. Department of Energy Office of Inspector General Home Page
                                http://energy.gov/ig

 Your comments would be appreciated and can be provided on the Customer Response
                                     Form.
